SIGAR                                          Special Inspector General for
                                                Afghanistan Reconstruction




                                                     SIGAR 14-81 Inspection Report



          Shindand Airbase: Use of Open-Air Burn Pit
          Violated Department of Defense
          Requirements




                                                                       JULY

                                                                    2014
SIGAR 14-81-IP/Shindand Airbase Incinerators
                                                      July 2014



SIGAR
                                                      Shindand Airbase: Use of Open-Air Burn Pit Violated Department of
                                                      Defense Requirements

                                                      SIGAR INSPECTION 14-81
Special Inspector General for
Afghanistan Reconstruction                            WHAT SIGAR FOUND
                                                      SIGAR found that the two U.S. Forces-Afghanistan (USFOR-A) operated
                                                      incinerators at Shindand Airbase were generally constructed in
WHAT SIGAR REVIEWED
                                                      accordance with contract specifications and transferred to the base in
In May 2011, the U.S. Army Corps of                   operable condition in June 2012. Further, the two U.S.-funded
Engineers awarded a $4.4 million contract             incinerators built for the Afghan military were transferred in August
to construct solid waste management                   2012 with no significant issues that would inhibit their operation.
facilities, including two incinerators, at
                                                      However, a USFOR-A report completed in December 2012 found that
Shindand Airbase, a coalition base located
                                                      the USFOR-A-operated incinerators were operating at a highly reduced
in Herat province in western Afghanistan
                                                      capacity due to mechanical problems and that only 35 percent of U.S.-
housing approximately 4,000 U.S. and
                                                      generated solid waste was being incinerated, with the remaining
Afghan military personnel and contractors.
                                                      burned in an Afghan-run open-air burn pit. While these incinerators
At the time of the contract award, Shindand
                                                      were repaired under warranty in January 2013, U.S.-generated solid
Airbase was primarily using open-air burn
                                                      waste continued to be sent to the Afghan-operated burn pit after these
pit operations to dispose of its solid waste.
                                                      repairs took place. USFOR-A did not provide justification for the
In addition to the two U.S. Forces-
                                                      continued use of the Afghan-operated burn pits after the incinerators
Afghanistan-operated incinerators, in
September 2009 the U.S. Army Corps of
Engineers awarded an $11 million contract
for incinerators at various bases for use by
the Afghan military. Shindand Airbase has
two of these Afghan-operated incinerators,
which were provided to the Afghan military
in August 2012 and cost about $755,000.
This report assesses whether (1)
construction of the incinerators was
completed in accordance with contract
requirements and applicable construction
standards, (2) the incinerators and
supporting facilities were being used as
intended and maintained, and (3) the use of
an open-air burn pit to dispose of solid
waste complied with applicable                         Open-Air Burn Pit at Shindand Airbase, with Unused Afghan-Operated
requirements.                                          Incinerators in Background
                                                       Source: SIGAR, February 14, 2014




     For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
became fully operational. Additionally, a May 2013 USFOR-A evaluation found that the Afghan-operated
incinerators were in operable condition and the Afghans had been trained and had the proper equipment to
operate their incinerators; however, the Afghans did not use them because the burn pits were cheaper to
operate.
Despite U.S. Central Command (CENTCOM) requirements to find alternatives to open-air burn pit operations,
USFOR-A sent their solid waste to the open-air burn pit until June 2013 and the Afghan military continued to use
burn pits to dispose of its own waste until October 2013. Further, environmental surveys released in 2011 and
2012 stated that solid waste such as batteries and plastics—referred to as “covered” waste, which is prohibited
from being disposed of in open-air burn pits—was sent to the Shindand open-air burn pit. Moreover, pursuant to
the National Defense Authorization Act for Fiscal Year 2010, use of open-air burn pits is prohibited unless the
Secretary of Defense determines that no alternative disposal method is feasible. The Secretary of Defense is also
required to notify Congress of this determination. Despite evidence that prohibited “covered” waste has been
disposed of in open-air burn pits at Shindand Airbase, neither CENTCOM nor USFOR-A have justified the use of
burn pits to dispose of this waste, determined that there is no alternative to the use of burn pits, or made the
required Congressional notifications.



WHAT SIGAR RECOMMENDS
SIGAR recommends that the Commander, CENTCOM, direct the appropriate CENTCOM units to conduct inquiries
and report back to SIGAR within 90 days to:

    1. Determine why the U.S. military continued to send its solid waste to the open-air burn pits at Shindand
       Airbase for 5 months after USFOR-A incinerators became fully operational.

    2. Determine why prohibited “covered” waste was burned in open-air burn pits at Shindand Airbase as
       early as January 2011 and why DOD did not notify Congress, as required under Section 317 of the 2010
       NDAA.
As part of these inquiries, CENTCOM should determine which officials were responsible for the decision to burn
solid waste generated by U.S. forces in open-air burn pits even after the incinerators became fully operational
and did not notify Congress as required by law and DODI 4715.19. CENTCOM should also identify what steps will
be taken to hold these officials accountable.
CENTCOM commented on a draft version of this report. The draft version contained three recommendations. Two
of the recommendations were substantially the same as the recommendations contained in this report. Namely,
SIGAR recommended that CENTCOM conduct inquiries to determine why the U.S. military continued to send its
solid waste to the open-air burn pits at Shindand Airbase for 5 months after USFOR-A incinerators became fully
operational and to determine why prohibited “covered” waste was burned in open-air burn pits without the
required notifications to Congress. CENTCOM agreed with both of these recommendations and stated in its
comments that it has directed USFOR-A to conduct these inquiries.
SIGAR’s draft report also recommended that CENTCOM conduct an inquiry as to why the Afghans continued to
dispose of their solid waste in open-air burn pits after USFOR-A provided incinerators to them. CENTCOM
disagreed with this recommendation, stating that the coalition does not have the authority to direct the ANSF to
use the incinerators that were provided. Moreover, CENTCOM commented that the Afghans fail to use the
incinerators because they do not perceive that the health benefits of using the incinerators are worth the cost of
the fuel to run them. Nevertheless, CENTCOM stated that coalition leadership continues to encourage the ANSF
to use the incinerators. As a result of CENTCOM’s comments, SIGAR removed this recommendation from the final
report. SIGAR believes CENTCOM needs to continue to strongly encourage the Afghans to use the incinerators
USACE provided because toxic smoke emanating from Afghan burn pits poses a threat to the health of U.S. and
coalition personnel serving with Afghans at Shindand Airbase.


For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
July 14, 2014


General Lloyd J. Austin III
Commander, U.S. Central Command

General Joseph F. Dunford, Jr.
Commander, U.S. Forces–Afghanistan, and
  Commander, International Security Assistance Force

Lieutenant General Joseph Anderson
Commander, International Security Assistance Force Joint Command

Lieutenant General Thomas P. Bostick
Commanding General and Chief of Engineers,
  U.S. Army Corps of Engineers


This report discusses the results of SIGAR’s inspection of incinerators and supporting waste
management facilities at Shindand Airbase in Herat province, Afghanistan. The report
recommends that the Commander, U.S. Central Command (CENTCOM), direct the appropriate
CENTCOM units to conduct inquiries and report back to SIGAR within 90 days to (1) determine
why the U.S. military continued to send its solid waste to the open-air burn pits at Shindand
Airbase for 5 months after USFOR-A incinerators became fully operational and (2) determine
why prohibited “covered” waste was burned in open-air burn pits at Shindand Airbase as early
as January 2011 and why DOD did not notify Congress, as required under Section 317 of the
2010 NDAA. As part of these inquiries, and to the extent possible, CENTCOM should determine
which official or officials were responsible for these decisions and identify what steps will be
taken to hold them accountable.
CENTCOM commented on a draft version of this report. The draft version contained three
recommendations. Two of the recommendations were substantially the same as the
recommendations contained in this report. Namely, we recommended that CENTCOM conduct
inquiries to determine why the U.S. military continued to send its solid waste to the open-air
burn pits at Shindand Airbase for 5 months after USFOR-A incinerators became fully
operational and to determine why prohibited “covered” waste was burned in open-air burn pits
without the required notifications to Congress. CENTCOM agreed with both of these
recommendations and stated in its comments that it has directed USFOR-A to conduct these
inquiries.
Our draft report also recommended that CENTCOM conduct an inquiry as to why the Afghans
continued to dispose of their solid waste in open-air burn pits after USFOR-A provided
incinerators to the Afghans. CENTCOM disagreed with this recommendation, stating that the
coalition does not have the authority to direct the Afghan National Security Forces (ANSF) to
use the incinerators that were provided. Moreover, CENTCOM commented that the Afghans fail
to use the incinerators because they do not perceive that the health benefits of using the
incinerators are worth the cost of the fuel to run them. Nevertheless, CENTCOM stated that
coalition leadership continues to encourage the ANSF to use the incinerators. As a result of
CENTCOM’s comments, we removed this recommendation from the final report. We commend
CENTCOM for continuing to encourage the Afghans to use the incinerators that we provided.
However, toxic smoke emanating from Afghan burn pits poses a threat to the health of
coalition personnel serving with Afghans at Shindand Airbase and will not be confined to the
Afghan-controlled side of the base.
This is the fourth in a series of inspections involving the construction of incinerators and
supporting facilities at bases that support U.S. operations throughout Afghanistan. SIGAR
conducted this inspection under the authority of Public Law No. 110-181, as amended; the
Inspector General Act of 1978, as amended; and in accordance with the Quality Standards for
Inspection and Evaluation, published by the Council of the Inspectors General on Integrity and
Efficiency.




John F. Sopko
Special Inspector General
  for Afghanistan Reconstruction
                                            TABLE OF CONTENTS


Background .................................................................................................................................................................. 2
Construction of Shindand Airbase Incinerators Generally Met Contract Requirements ......................................... 2

USFOR-A Incinerators Are Operating, but Afghan-Operated Incinerators Remain Unused ..................................... 3

Shindand Airbase Used Open-Air Burn Pits Without Providing Required Notifications to Congress and despite
Health Risk to Base Personnel ................................................................................................................................... 4
Conclusion.................................................................................................................................................................... 8

Recommendations ...................................................................................................................................................... 8
Agency Comments ....................................................................................................................................................... 9

Appendix I - Scope and Methodology ....................................................................................................................... 10

Appendix II - Comments from U.S. Central Command ............................................................................................. 11


PHOTOS

Photo 1 - Two USFOR-A Incinerators Burn Solid Waste at Shindand Airbase .......................................................... 1

Photo 2 - Afghan-Operated Incinerators Sit Unused Behind a Locked Gate at Shindand Airbase ......................... 3

Photo 3 - Open-Air Burn Pit at Shindand Airbase, with Unused Afghan-Operated Incinerators in Background ..... 5


ABBREVIATIONS

                    ANSF                                    Afghan National Security Forces

                    CENTCOM                                 U.S. Central Command

                    DOD                                     Department of Defense
                    DODI                                    Department of Defense Instruction

                    OEHSA                                   Occupational Environmental Health Site Assessment

                    USACE                                   U.S. Army Corps of Engineers
                    USFOR-A                                 U.S. Forces-Afghanistan




SIGAR 14-81-IP/Shindand Airbase Incinerators                                                                                                                           Page i
Waste incinerators at U.S. and coalition military bases throughout Afghanistan have been installed for several
reasons, including concerns about the possible health hazards to base personnel from emissions generated by
disposing of solid waste material through the use of open-air burn pit operations. One such base where
incinerators were installed is Shindand Airbase, which is a coalition base with U.S., International Security
Assistance Forces, and Afghan National Security Forces operations located in Herat province, near the
Afghanistan border with Iran. As of February 2014, the base housed approximately 4,000 U.S. and Afghan
military personnel and
contractors. Photo 1 shows two of
these incinerators at Shindand         Photo 1 - Two USFOR-A Incinerators Burn Solid Waste at Shindand
Airbase.                               Airbase

For this inspection, we assessed
whether (1) construction of the
incinerators was completed in
accordance with contract
requirements and applicable
construction standards, (2) the
incinerators and supporting waste
management facilities were being
used as intended and
maintained, and (3) the use of an
open-air burn pit to dispose of
solid waste complied with
applicable requirements.
We conducted our inspection
work at Shindand Airbase in
                                      Source: SIGAR, February 14, 2014
Herat province and in Kabul,
Afghanistan, from February 2014 through June 2014, in accordance with the Quality Standards for Inspection
and Evaluation, published by the Council of the Inspectors General on Integrity and Efficiency. The engineering
assessment was conducted by a professional engineer in accordance with the National Society of Professional
Engineers’ Code of Ethics for Engineers. We also reviewed relevant documentation related to operation of the
incinerator systems and open-air burn pits at Shindand Airbase, as well as previous SIGAR reports and alert
letters examining incinerators and burn pit construction and operation.1 Appendix I provides more detail on our
scope and methodology.




1 See SIGAR Inspection 13-8, Forward Operating Base Salerno: Inadequate Planning Resulted in $5 Million Spent for

Unused Incinerators and Continued Use of Potentially Hazardous Open-Air Burn Pit Operations (April 25, 2013); SIGAR
Inspection 14-13, Forward Operating Base Sharana: Poor Planning and Construction Resulted in $5.4 Million Spent for
Inoperable Incinerators and Continued Use of Open-Air Burn Pits (December 16, 2013); SIGAR Alert 14-42, USACE Area
Engineer and Contracting Officer Did Not Hold Contractor Accountable for Poor Construction (March 18, 2014); SIGAR Alert
13-4, Observations on Solid Waste Disposal Methods in Use at Camp Leatherneck (July 11, 2013).



SIGAR 14-81-IP/Shindand Airbase Incinerators                                                                     Page 1
BACKGROUND

On May 31, 2011, the U.S. Army Corps of Engineers (USACE) awarded a $4.4 million contract (W5J9JE-10-D-
0022 Delivery Order 0006) to two contractors in a joint venture—ECC International, based in Burlingame,
California, and METAG Insaat Ticaret, based in Istanbul, Turkey—to construct solid waste management facilities
at Shindand Airbase. The two incinerators at Shindand, which were transferred by USACE to the base in June
2012, are operated by KD Limited under a contract managed by U.S. Forces-Afghanistan (USFOR-A).2
In addition to the USFOR-A incinerators, on September 23, 2009, USACE awarded an $11 million contract
(W917PM-07-D-0019) to FCEC United Infrastructure Projects, based in Aliso Viejo, California, for the purchase
and installation of incinerators for Afghan military use at bases throughout Afghanistan. 3 Through this contract,
the U.S. government funded two Afghan-operated incinerators at Shindand Airbase at a cost of about
$755,000. These incinerators were transferred to the Afghan military in August 2012.4


CONSTRUCTION OF SHINDAND AIRBASE INCINERATORS GENERALLY MET
CONTRACT REQUIREMENTS

Our site visit on February 14, 2014, found that the two USFOR-A incinerators, each with a capacity to burn 8
tons of solid waste per day, were generally constructed in accordance with contract specifications. The transfer
documents noted some construction deficiencies.5 These items ranged from a lack of fire extinguishers on site
to unfinished work on the site drainage and holding pond. However, our engineer determined that these items
would not have affected the operational capacity of the incinerators.
In addition, USACE documents transferring the Afghan-operated incinerators in August 2012 to the Afghan
military did not identify any significant issues that would inhibit their operation. Almost a year after the
installation of the Afghan-operated incinerators, an evaluation issued by USFOR-A in May 2013 found that the
two Afghan-operated incinerators were operable and Afghan personnel had been trained and possessed the
resources to operate the incinerators.6




2For the purposes of this report, we will refer to the incinerators built at Shindand Airbase and operated under a contract
managed by USFOR-A as the USFOR-A incinerators.
3This inspection examines incinerators operated under contract by USFOR-A as well as incinerators managed by the
Afghan military. Our previous inspections on incinerators involved only USFOR-A-operated incinerators.
4For the purposes of this report, we refer to the incinerators built for operation by the Afghan military as the Afghan-
operated incinerators.
5 DD Form 1354, Transfer and Acceptance of DoD Real Property, August 2013. This document states that the facilities
transferred were in accordance with maps, drawings, and specifications and change orders were approved by the
authorized representative.
6   DA Form 11-2, Internal Control Evaluation Certification, May 5, 2013.



SIGAR 14-81-IP/Shindand Airbase Incinerators                                                                               Page 2
USFOR-A INCINERATORS ARE OPERATING, BUT AFGHAN-OPERATED
INCINERATORS REMAIN UNUSED

An Occupational Environmental Health Site Assessment (OEHSA) survey report completed in December 2012,
6 months after the USFOR-A incinerators were transferred to the base in operable condition, found that these
incinerators were operating at a highly reduced capacity due, in part, to structural failure of the refractory liner 7
inside the incinerators and poor fuel injection systems.8 The report also stated that approximately 35 percent
of solid waste was incinerated at the USFOR-A
incinerators, with the rest burned at the Afghan-run       Photo 2 - Afghan-Operated Incinerators Sit Unused
open-air burn pit also located on the base.                Behind a Locked Gate at Shindand Airbase
Officials of KD Limited, the contractor responsible for
operating the incinerator, stated that the problems
limiting operation were due to the continuous
operation of the incinerators immediately after
transfer to the base in June 2012. Specifically, the
officials stated that the incinerators had operated 24
hours a day, seven days a week to process all of the
solid waste produced by the base, which did not
allow time for required maintenance. In January
2013, about 7 months after the incinerators were
transferred to the base, repairs to the incinerator
system were conducted under warranty by the
manufacturer, and the incinerators were again made
fully operational. The KD Limited system operator          Source: SIGAR, February 14, 2014
told us that, due to increased recycling of solid waste
after the incinerators were repaired, it is now necessary to operate the incinerators only about 18 hours a day.
This decrease in usage allows maintenance to be conducted more regularly. Base officials stated there have
been no further problems with the USFOR-A incinerators since the January 2013 repairs. As such, the base
would have been able to incinerate all U.S.-produced solid waste beginning in January of 2013; however,
Shindand Airbase continued to burn U.S.-produced solid waste in the open-air burn pits until June 2013.9
Conversely, the December 2012 OEHSA survey report revealed that the Afghan-operated incinerators were not
being used. More than 14 months after the December 2012 OEHSA survey report, our February 2014
inspection of the Shindand Airbase incinerators showed, and base officials confirmed, that the two smaller
Afghan-operated incinerators have never been used following their transfer to the Afghan military in August
2012. Photo 2 shows the unused incinerators. A May 2013 USFOR-A evaluation found that the Afghan military
was still using an open-air burn pit to dispose of its solid waste, even though Afghan base personnel possessed
the training and equipment necessary to operate their incinerators. Similarly, in June 2013, a USFOR-A
information paper reported that the open-air burn pit was being used while the two Afghan-operated
incinerators sat unused. The paper stated, “It should be a priority to discontinue the use of the burn pit as soon


7A refractory liner is made from a cement-like material that can either be cast into bricks which are then stacked into place
or cast in its final shape.
8U.S. Forces-Afghanistan, Occupational and Environmental Health Site Assessment Survey Report, December 2012. This
survey was conducted to evaluate the potential health threats associated with environmental contaminants, disease
vectors, and other occupational and environmental conditions experienced by U.S. forces operating at Shindand Airbase.
9USFOR-A officials did not provide documentation identifying the amount of U.S.-produced solid waste disposed of in the
Afghan-operated burn pit after the USFOR-A incinerators became operational in January 2013.



SIGAR 14-81-IP/Shindand Airbase Incinerators                                                                          Page 3
as possible.”10 In February 2014, base officials stated that the Afghan military chose to use the open-air burn
pit instead of its two incinerators because the open-air burn pit costs less to operate. Moreover, in its
comments on a draft version of this report, CENTCOM stated that the Afghans fail to use the incinerators
because they do not perceive that the health benefits of using the incinerators are worth the cost of the fuel to
run them. The Afghan military continued to use the open-air burn pit until October 2013, when a contract to
haul the solid waste from the airbase was put in place.


SHINDAND AIRBASE USED OPEN-AIR BURN PITS WITHOUT PROVIDING
REQUIRED NOTIFICATIONS TO CONGRESS AND DESPITE HEALTH RISK TO BASE
PERSONNEL

Disposal of Hazardous Waste in Open-Air Burn Pits Is Prohibited by Law and
Regulation
Section 317 of the National Defense Authorization Act for Fiscal Year 2010 (the Act) required the Secretary of
Defense to “prescribe regulations prohibiting the disposal of covered waste in open-air burn pits except in
circumstances in which the Secretary determines that no alternative disposal method is feasible.”11 In such an
event, the Act requires the Secretary to notify the House and Senate Armed Services Committees of the
determination within 30 days and, after this notice has been given, submit justifications to the Committees
every 180 days to continue to operate open-air burn pits.
In response to the requirements of Section 317 of the Act, the Department of Defense (DOD) issued DOD
Instruction (DODI) 4715.19 on February 15, 2011, which requires each operational commander in contingency
operations to develop and approve a solid waste management plan. DODI 4715.19 states that the use of
open-air burn pits is prohibited unless included within such a plan. In addition, DODI 4715.19 states that
“open-air burn pits should be a short-term solution during contingency operations where no other alternative is
feasible. For the longer term, incinerators, engineered landfills, or other accepted solid waste management
practices are to be used whenever feasible. When used, open-air burn pits should be operated in a manner
that prevents or minimizes risk to human health and safety of DOD personnel and, where possible, harm to the
environment.”
Further, DODI 4715.19 delegates the authority and responsibility of the Secretary of Defense to determine
circumstances in which no alternative method for disposing of “covered” waste is feasible to the Commanders
of Combatant Commands. In the case of Afghanistan, the CENTCOM commander is responsible for making
such determinations. To support each determination, the commander is responsible for developing a
determination package, which must include the “circumstances, reasoning, and methodology for the
determination.” DODI 4715.19 also requires that the commander complete a health assessment report for




10   U.S. Forces-Afghanistan, Information Paper on Shindand 838 Air Base–Solid Waste Disposal, 30 June 2013.
11 National Defense Authorization Act for Fiscal Year 2010, Pub. L. No. 111-84, § 317, 123 Stat. 2190, 2249-50 (2009)
(codified at 10 U.S.C. § 2701 note). The Act defines “covered waste” as hazardous waste (as defined by 42 U.S.C. §
6903(5)), medical waste, and other waste as designated by the Secretary. Department of Defense Instruction 4715.19,
which DOD issued in response to the 2010 NDAA, designated additional wastes, including tires, treated wood, batteries,
compressed gas cylinders unless empty with valves removed, fuel containers unless completely evacuated of contents,
aerosol cans, polychlorinated biphenyls, petroleum, oils, and lubricant products (other than waste fuel for initial
combustion), asbestos, mercury, foam tent material, or any item containing any of the above items. The instruction allows
for a small amount of plastic remaining after a good faith effort to remove or recover plastic materials from the solid waste
stream.



SIGAR 14-81-IP/Shindand Airbase Incinerators                                                                          Page 4
each burn pit for which a determination package is required.12 The Under Secretary of Defense for Acquisition,
Technology, and Logistics then submits any determinations made by the Commanders of Combatant
Commands to the House and Senate Armed Services Committees. As required by the Act, DODI 4715.19 also
requires the commander to provide justification for continued burn pit operations every 180 calendar days
thereafter, for as long as prohibited “covered” waste is disposed of in this manner.

Moreover, CENTCOM Regulation 200-2 prohibits the burning of solid waste in contingency operations—unless
no feasible alternative can be found—to protect the health of U.S. personnel. Specifically, CENTCOM Regulation
200-2 states that when a base exceeds 100 U.S. personnel for 90 days, it must develop a plan for installing
waste disposal technologies, such as incinerators, so that open-air burn pit operations can cease. The
regulation further states that if incinerators are chosen, they must be on-site within 180 days of the decision to
use them and be operational 180 days after arrival. Open-air burn pit operations must cease not more than
360 days after a base reaches the U.S.
personnel threshold—regardless of the                 Photo 3 - Open-Air Burn Pit at Shindand Airbase, with
technology chosen.                                    Unused Afghan-Operated Incinerators in Background

Shindand Airbase’s Use of Open-Air
Burn Pits Violated Law and
Regulation
Despite the requirement to find alternatives to
open-air burn pit operations, USFOR-A sent
U.S.-generated solid waste to the open-air
burn pit until June 18, 2013—when it began
sending all U.S.-generated solid waste to the
two USFOR-A incinerators.13 Further, the
Afghan military continued to use open-air burn
pits to dispose of Afghan-generated solid
                                                    Source: SIGAR, February 14, 2014
waste until at least October 2013.14 Photo 3
shows the open-air burn pit with the unused
Afghan-operated incinerators in the background. As we reported in December 2013, according to CENTCOM
officials, no bases in Afghanistan, which would include Shindand Airbase, have been in compliance with
CENTCOM regulation 200-2 regarding the use of open-air burn pits since the regulation was issued in 2011.15



12 According to DODI 4715.19, the health assessment is to include (a) an epidemiological description of the short and long
term health risks posed to personnel in the area where the open-air burn pit is located because of exposure to the open-air
burn pit, (b) the methodology used to determine the health risks described, and (c) an assessment of the operational risks
and health risks when making the determination that no alternative disposal method is feasible for the open-air burn pit.
13 CENTCOM did not provide us with specific information on when Shindand Airbase started using open-air burn pits to
dispose of solid waste; however, base officials stated that all solid waste was disposed of using the open-air burn pits prior
to the installation of incinerators at Shindand Airbase.
14Open-air burn pit operations at Shindand Airbase were conducted by the Afghan military; however, Shindand Airbase is a
CENTCOM coalition base. Therefore, the operation of the open-air burn pit falls under the authority of CENTCOM Regulation
200-2.
15 SIGAR identified the continued use of open-air burn pit operations in violation of CENTCOM Regulation 200-2 during our
inspection of Forward Operating Bases Salerno and Sharana. For more information, see SIGAR Inspection 13-8, Forward
Operating Base Salerno: Inadequate Planning Resulted in $5 Million Spent for Unused incinerators and the Continued Use
of Potentially Hazardous Open-Air Burn Pit Operations, April 2013, and; SIGAR Inspection 14-13, Forward Operating Base
Sharana: Poor Planning and Construction Resulted in $5.4 Million Spent for Inoperable Incinerators and Continued Use of
Open-Air Burn Pits, December 2013.



SIGAR 14-81-IP/Shindand Airbase Incinerators                                                                           Page 5
The reasons for USFOR-A’s continued use of the open-air burn pits after January 2013, when the USFOR-A
operated incinerators reportedly became fully operational, remain unexplained. According to a June 2013
USFOR-A information paper, a DynCorp site manager stated that one to two truckloads of U.S.-generated solid
waste per day were transferred to the Afghan-operated open-air burn pit from at least November 2012 to June
2013.16 The paper recommended an Army Regulation 15-6 investigation to determine (1) why the commander
responsible for the Shindand Afghan burn-pit continued to permit the burning of solid waste despite
information provided in health reports, and (2) why solid waste from U.S. military forces continued to be
dumped into the Afghan burn pit through June 2013.17 However, a former USFOR-A official told us that USFOR-
A took no action to initiate an investigation, and we were provided no evidence that an investigation took place.
We have referred this matter to SIGAR investigators for further action, as appropriate. In addition, the January
2011, July 2011, and December 2012 OEHSA surveys for Shindand Airbase indicate that solid waste disposed
of in the Afghan-run burn pits included unsegregated solid waste from USFOR-A, including plastics and other
prohibited “covered” waste. Specifically:
          The January 2011 OEHSA survey found that no segregation of solid waste took place at the Afghan-
           operated burn pit and that small amounts of prohibited “covered” waste, such as aerosol cans and
           batteries, were mixed in with other solid waste and burned daily. 18
          The July 2011 OEHSA survey noted that “everything is burned at the burn pit,” and noted that, among
           other things, tires, which are considered prohibited “covered” waste by DODI 4715.19, were being
           burned in the open-air burn pit.19
          The December 2012 OEHSA survey similarly found that no segregation of solid waste took place at the
           Afghan-run burn pit and that a small amount of aerosol cans and batteries were mixed in with other
           solid waste to be burned daily. The survey also noted that trash was not segregated and mixed
           garbage containing plastics and metals were burned at the Afghan-run burn pit.20
Further, a January 2013 Environmental Conditions Report found that U.S. operations generated the majority of
the waste burned in the Afghan-operated open air burn pits.21 The report added that the smoke from burned
plastics, prohibited “covered” waste, and other miscellaneous waste negatively affected air quality and the
health of residents, including U.S. military personnel and civilians, at Shindand Airbase. The report
recommended, among other things, that all solid waste be directed to the incinerators so that the contractor
running the incinerators could sort through the waste and remove recyclables, including plastics. Any
remaining non-covered waste not processed by the incinerators would be transported to the Afghan-operated
burn pit. However, CENTCOM provided us with no documentation that this recommendation was implemented.
Despite the Environmental Conditions Report and the OESHA surveys’ findings that prohibited “covered” solid
waste was disposed of in the open-air burn pit at Shindand Airbase, neither CENTCOM nor USFOR-A prepared
determination packages required by DODI 4715.19 detailing the circumstances, reasoning, and methodology
justifying the use of open-air burn pits to dispose of prohibited “covered” solid waste. On the contrary, and


16 DynCorp was the contractor in charge of collecting and transporting solid waste to the USFOR-A incinerators at Shindand
Airbase.
17 Army Regulation 15-6 sets forth procedures for conducting informal and formal investigations. Army Regulation 15-6
investigations are used as the basis for many investigations requiring the detailed gathering and analyzing of facts and the
making of recommendations based on those facts.
18U.S. Forces–Afghanistan, Occupational and Environmental Health Site Assessment Survey Report, Shindand Airbase,
January 15, 2011.
19U.S. Forces–Afghanistan, Occupational and Environmental Health Site Assessment Survey Report, Shindand Airbase,
July 21, 2011.
20SIGAR obtained additional documentation that further corroborates information in the OESHA reports on the disposal of
covered solid waste in open-air burn pits at Shindand Airbase. However, this documentation is classified.
21   USFOR-A Environmental Conditions Report for Shindand Airbase, Herat province, Afghanistan, January 2013.



SIGAR 14-81-IP/Shindand Airbase Incinerators                                                                         Page 6
despite clear evidence, CENTCOM officials have denied that prohibited “covered” solid waste was disposed of
in open-air burn pits. Specifically, in response to our December 2013 request for determination packages
produced by bases in Afghanistan that were burning prohibited “covered” waste, CENTCOM replied:
“Determination packages are not required since the bases in question are not burning covered waste.” The
response further stated that, “Covered waste is not authorized to be burned in open-air burn pits in accordance
with [CENTCOM Regulation 200-2] and therefore these bases are not burning covered waste [and] they are not
required to develop and submit determination packages.”22
Because no determination packages were prepared, despite evidence that some prohibited “covered”
materials were disposed of in open-air burn pits, none of the reports required by the Act were submitted to the
House and Senate Armed Services Committees. Such reports would have explained the circumstances,
reasoning, and methodology for a determination that no alternatives to open-air burn pits existed as well as an
assessment of the short and long term health risks posed to personnel in the area where the burn pit was
located.


Burn Pit Operations Continued Operation despite Health Risks Identified at
Shindand
The continued use of open-air burn pits posed potential health risks for base personnel. Some possible health
hazards associated with smoke emitted by burning waste include breathing particulate matter, lead, mercury,
dioxins, and irritant gases. These substances can negatively affect organs and body systems, such as the
adrenal glands, lungs, liver, and stomach.23 According to the December 2012 OEHSA survey, emissions
produced by the USFOR-A-operated incinerator were low. However, the Afghan-run open-air burn pit burned at
much lower temperatures and thus smoldered much of the time, creating large volumes of smoke and volatile
gases. The survey also found that the burn pit was not well managed and that the site had a high potential to
produce dioxins and other toxic compounds. 24 In addition, the June 2013 USFOR-A information paper reported
that in April and May 2013, the Shindand garrison commander received complaints from U.S. and Afghan
personnel regarding the poor air quality emanating from the Afghan burn pit. In its comments on a draft version
of this report, CENTCOM noted that the Afghans fail to use the incinerators because they do not perceive that
the health benefits of using the incinerators are worth the cost of the fuel to run them.




22   CENTCOM statement on determination packages, US CENTCOM External Audits, December 27, 2013.
23The Armed Forces Health Surveillance Center, The Naval Health Research Center, and The U.S. Army Public Health
Command (Provisional), Epidemiological Studies of Health Outcomes among Troops Deployed to Burn Pit Sites, May 2010;
U.S. Government Accountability Office, GAO-11-63, Afghanistan and Iraq: DOD Should Improve Adherence to Its Guidance
on Open Pit Burning and Solid Waste Management, October 2010; Institute of Medicine, Committee on the Long-Term
Health Consequences of Exposure to Burn Pits in Iraq and Afghanistan, Long-Term Health Consequences of Exposure to
Burn Pits in Iraq and Afghanistan, October 2011.
24Dioxins are a name for a family of toxic substances that can be produced when products are burned. Dioxins can cause a
number of adverse health effects, and the U.S. Environmental Protection Agency has reported that it is likely to cause
cancer.



SIGAR 14-81-IP/Shindand Airbase Incinerators                                                                     Page 7
CONCLUSION

To their credit, USACE and CENTCOM officials ensured mechanical issues with the two USFOR-A incinerators at
Shindand Airbase were repaired under warranty. This stands in sharp contrast to other U.S. military bases we
have inspected, such as Forward Operating Base Salerno and Forward Operating Base Sharana, where
mechanical issues with the incinerators resulted in the complete waste of U.S. taxpayer funds and continued
exposure of U.S. military personnel to potentially hazardous chemicals.
However, we remain concerned that the burning of prohibited “covered” waste at Shindand Airbase continued
even after USFOR-A and Afghan-operated incinerators became operational. Despite clear evidence in OEHSA
survey reports that prohibited “covered” waste had been disposed of in open-air burn pits, CENTCOM officials
have denied such prohibited disposal occurred. As a result, the official determinations that no alternatives to
open-air burn pits existed and the reports justifying the continued use of burn pits were not submitted to
Congress as required. More importantly, however, the disposal of prohibited “covered” waste in burn-pits—even
after complaints were received from U.S. military personnel of the poor air quality at the base—put the health
and safety of U.S. military, Afghan military, and contractor personnel stationed at the base at risk.


RECOMMENDATIONS
We recommend that the Commander, CENTCOM, direct the appropriate CENTCOM units to conduct inquiries
and report back to SIGAR within 90 days to:

    1. Determine why the U.S. military continued to send its solid waste to the open-air burn pits at Shindand
       Airbase for 5 months after USFOR-A incinerators became fully operational.

    2. Determine why prohibited “covered” waste was burned in open-air burn pits at Shindand Airbase as
       early as January 2011 and why DOD did not notify Congress, as required under Section 317 of the
       2010 NDAA.
As part of these inquiries, CENTCOM should determine which officials were responsible for the decision to burn
U.S.-generated solid waste in open-air burn pits after the incinerators became fully operational and did not
notify Congress as required by law and DODI 4715.19. CENTCOM should also identify what steps will be taken
to hold these officials accountable.




SIGAR 14-81-IP/Shindand Airbase Incinerators                                                            Page 8
AGENCY COMMENTS

We provided a draft version of this report to CENTCOM and USACE for their review and comment. CENTCOM did
provided written comments that are reproduced in appendix II. USACE did not provide comments.
The draft version of the report that we provided to CENTCOM contained three recommendations. Two of the
recommendations were substantially the same as the recommendations in this report. Namely, we
recommended that CENTCOM conduct inquiries to determine why the U.S. military continued to send its solid
waste to the open-air burn pits at Shindand Airbase for 5 months after USFOR-A incinerators became fully
operational and to determine why prohibited or “covered” waste was burned in open-air burn pits without the
required notifications to Congress. CENTCOM agreed with both of these recommendations and stated in its
comments that it has directed USFOR-A to conduct these inquiries.
Our draft report also recommended that CENTCOM conduct an inquiry as to why the Afghans continued to
dispose of their solid waste in open-air burn pits after USFOR-A provided incinerators to the Afghans. CENTCOM
disagreed with this recommendation, stating that the coalition does not have the authority to direct the Afghan
National Security Forces (ANSF) to use the incinerators that were provided. Moreover, CENTCOM commented
that the Afghans failed to use the incinerators because they do not perceive that the health benefits of using
the incinerators are worth the cost of the fuel to run them. Nevertheless, CENTCOM stated that coalition
leadership continues to encourage the ANSF to use the incinerators. As a result of CENTCOM’s comments, we
have removed this recommendation from the final report. We believe CENTCOM needs to continue to strongly
encourage the Afghans to use the incinerators USACE provided because toxic smoke emanating from Afghan
burn pits poses a threat to the health of U.S. and coalition personnel serving with Afghans at Shindand Airbase.




SIGAR 14-81-IP/Shindand Airbase Incinerators                                                             Page 9
APPENDIX I - SCOPE AND METHODOLOGY

This report provides SIGAR’s inspection results of the Shindand Airbase incinerators and supporting facilities.
We conducted our inspection at Shindand Airbase on February 14, 2014. Shindand Airbase is the fourth in a
series of inspections that examine incinerator construction projects that have taken place at U.S. bases
throughout Afghanistan. Later this year, we will issue a capping report summarizing the findings of our
incinerator inspections.
To determine whether (1) construction was completed in accordance with contract requirements and
applicable construction standards, (2) the incinerators and supporting facilities were being used as intended
and maintained, and (3) the use of open-air burn pits to dispose of solid waste complied with applicable
requirements, we
       reviewed contract documents to understand project requirements and contract administration;
       interviewed cognizant officials regarding facility operation and maintenance; and
       conducted a physical inspection, reviewed environmental surveys and photographed the incinerators
        and supporting facilities to determine the current status and quality of construction.
This inspection examines incinerators operated under contract by USFOR-A as well as incinerators managed by
the Afghan military. Our previous inspections on incinerators involved only USOR-A-operated incinerators.
SIGAR conducted its fieldwork at Shindand Airbase and supporting facilities in Herat province, Afghanistan,
and in Kabul, Afghanistan, from February through June 2014, in accordance with Quality Standards for
Inspection and Evaluation published by the Council of the Inspectors General on Integrity and Efficiency. These
standards were established to guide inspection work performed by all of the Offices of Inspectors General. The
engineering assessment was conducted by a professional engineer in accordance with the National Society of
Professional Engineers’ Code of Ethics for Engineers. We did not rely on computer-processed data in
conducting this inspection. However, we did consider the impact of compliance with laws and fraud risk.
We believe that the evidence obtained provides a reasonable basis for our findings and conclusions based on
our inspection objectives. SIGAR conducted this inspection under the authority of Public Law No. 110-181, as
amended; and the Inspector General Act of 1978, as amended.




SIGAR 14-81-IP/Shindand Airbase Incinerators                                                             Page 10
APPENDIX II - COMMENTS FROM U.S. CENTRAL COMMAND




SIGAR 14-81-IP/Shindand Airbase Incinerators       Page 11
SIGAR 14-81-IP/Shindand Airbase Incinerators   Page 12
ACKNOWLEDGMENTS
Scott Harmon, Senior Inspections Manager
Brian Flynn, Senior Audit Manager
John Dettinger, Inspector-in-Charge
Robert Rivas, Senior Auditor
Ronald Riach, P.E., Engineer




SIGAR 14-81-IP/Shindand Airbase Incinerators   Page 13
                                                      .




                                     This inspection report was conducted
                                       under project code SIGAR-I-007F




SIGAR 14-81-IP/Shindand Airbase Incinerators                                Page 14
           SIGAR’s Mission     The mission of the Special Inspector General for Afghanistan
                               Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
   Reports and Testimonies     site (www.sigar.mil). SIGAR posts all publically released reports,
                               testimonies, and correspondence on its Web site.




To Report Fraud, Waste, and    To help prevent fraud, waste, and abuse by reporting allegations of
      Abuse in Afghanistan     fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
                               hotline:
   Reconstruction Programs
                                           Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065



              Public Affairs   Public Affairs Officer
                                           Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
